                               CLOSEOUT FOR M-93070037

       An allegation of intellectual theft was brought to the attention of OIG bv a




an area that he,
                       -~-
concept discussed in thls article was not "entirely new research," but, instead, was
                               had initiated in the late 1970s.

       The National Science Foundation investigates allegations of misconduct
involving "activities funded by NSF" (45 C.F.R. 5 689.1). OIG reviewed NSF's
proposal files and found the subject had never applied for funding from NSF.

       This case is, therefore, closed without any finding of misconduct.




Staff Scientist, &ersight
Concurrence:



                          4-          /~/73                             1 ..A.    (+h3
                      '
                                 11

Donald E. Buzzelli                            James J? ~wole&!ku
Deputy Assistant Inspector General for        Assistant Inspector General for Oversight
Oversight



~ o n t ~ o m K.
              e r Fisher
                  ~
Counsel to the Inspector General

cc:    Signatories
       Inspector General
